      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                       Washington, D.C. 20201




September 22, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Rolling Plains Management
               Corporation (A-06-10-00053)


Attached, for your information, is an advance copy of our final report on Rolling Plains
Management Corporation’s (the Grantee) compliance with Head Start health and safety
standards. We will issue this report to the Grantee within 5 business days. The Administration
for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Patricia Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-10-00053.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                        Office of Audit Services, Region VI
                                                                         1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

September 24, 2010

Report Number: A-06-10-00053

Mr. Felix Taylor
Executive Director
Rolling Plains Management Corporation
P.O. Box 490
Crowell, TX 79227-0490

Dear Mr. Taylor:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at Rolling
Plains Management Corporation. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-10-00053 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Felix Taylor


Direct Reply to HHS Action Official:

Mr. Leon R. McCowan
Regional Administrator, Region VI
Administration for Children and Families
U.S. Department of Health & Human Services
1301 Young Street, Room 914
Dallas, TX 75202-5433
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF HEAD START
    HEALTH AND SAFETY
       STANDARDS AT
      ROLLING PLAINS
  MANAGEMENT CORPORATION



                      Daniel R. Levinson
                       Inspector General

                       September 2010
                        A-06-10-00053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as “the Head Start program.” In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Rolling Plains Management Corporation (the Grantee) is a nonprofit organization with
headquarters in Crowell, Texas. The Grantee provides comprehensive child development
programs through community-based centers. The Grantee operates a Head Start program at 11
State-licensed facilities in 8 counties. For program year December 1, 2009, through November 30,
2010, OHS awarded $1.8 million in Federal Head Start funds to the Grantee to provide services to
294 children. On June 30, 2009, the Grantee also received $143,375 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of January 2010:

   •   The files on 6 of the Grantee’s 75 employees and contractors did not contain evidence of
       all required background checks. The files on the 69 remaining employees and contractors
       contained evidence of the required background checks, but the checks were not always
       requested when they were due.

   •   The Grantee’s 11 childcare facilities did not meet all Federal Head Start and State
       requirements on protecting children from unsafe materials and equipment.

   •   Three of the Grantee’s childcare facilities did not provide a fully secure environment for
       the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.




                                                i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee agreed with most of our findings and
described actions that it had taken or planned to take to address most of the deficiencies that we
identified. The Grantee did not address four of our findings and disagreed with two other
findings regarding the lack of documentation of carbon monoxide detector tests and severe
weather drills at Archer City and Turner, respectively. The Grantee stated that it had
documentation of the tests and drills. Regarding our finding at one facility that a side door
opening to an entryway that led to two classrooms was unlocked, the Grantee said that each
classroom must have two exits.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

At the time of our visits to Archer City and Turner, the Grantee was unable to provide us with
documentation of carbon monoxide detector tests and severe weather drills, respectively, and the
Grantee did not provide the documentation with its comments. We consider the unlocked door
to be a security risk because it would allow unrestricted entry to the facility. Nothing in the
Grantee’s comments caused us to revise our findings or recommendations.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Federal Head Start Program ....................................................................................1
              Federal and State Requirements for Head Start Grantees .......................................1
              Rolling Plains Management Corporation................................................................1
              Office of Inspector General Audits .........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
              Objective ................................................................................................................2
              Scope ......................................................................................................................2
              Methodology ..........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          EMPLOYEE BACKGROUND CHECKS………………............................ ...................3
              Federal and State Requirements..............................................................................3
              Grantee’s Compliance With Background Check Requirements .............................4

          MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY...................5
             Federal and State Requirements..............................................................................5
             Grantee’s Compliance With Material and Equipment Safety Requirements .........6

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES .....................9

          RECOMMENDATIONS ..................................................................................................9

          GRANTEE COMMENTS ..............................................................................................10

          OFFICE OF INSPECTOR GENERAL RESPONSE .....................................................10

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY AND
             FACILITY SECURITY REQUIREMENTS

          B: GRANTEE COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as “the Head Start program.”

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

In Texas, childcare centers must comply with the Texas Administrative Code, Title 40, part 19,
chapters 745 and 746, and the Texas Human Resources Code, chapter 42.

Rolling Plains Management Corporation

Rolling Plains Management Corporation (the Grantee) is a nonprofit organization with
headquarters in Crowell, Texas. The Grantee provides comprehensive child development
programs through community-based centers. The Grantee operates a Head Start program at 11
State-licensed facilities in 8 counties. For program year December 1, 2009, through November 30,
2010, OHS awarded approximately $1.8 million in Federal Head Start funds to the Grantee to
provide services to 294 children. On June 30, 2009, the Grantee also received $143,375 in
Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records, facilities, and transportation program as of
January 2010. To gain an understanding of the Grantee’s operations, we conducted a limited
review of the Grantee’s internal controls as they related to our audit objective.

We performed our fieldwork from January 11 through 14, 2010, at the Grantee’s administrative
office in Crowell, Texas, and at its 11 childcare facilities in the Texas towns of Archer City,
Chillicothe, Crowell, Graham, Knox City, Munday, Olney, Paducah, Quanah, Seymour, and
Vernon.

Methodology

To accomplish our objective, we:

    •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

    •   reviewed Federal and State laws, requirements, and policies related to Federal grant
        awards and the Head Start program;

    •   reviewed the Grantee’s current Head Start grant award documents;

    •   reviewed the Grantee’s files on all 63 Head Start employees and 12 individuals under
        contract with the Grantee (contractors); 1

    •   reviewed the qualifications of the Grantee’s 9 contracted busdrivers;

    •   inspected the 5 schoolbuses that the Grantee used to transport Head Start children;


1
 The Grantee had 63 Head Start employees and 3 contractors who were paid with Head Start funds. Nine
contracted busdrivers were not paid with Head Start funds but required background checks under Texas
Administrative Code rule 745.615(a)(8) because they were frequently at the Grantee’s facilities while
children were present.


                                                      2
   •   reviewed the Grantee’s documentation of fire and sanitation inspections;

   •   visited the Grantee’s 11 childcare facilities; and

   •   discussed our preliminary findings with Grantee officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of January 2010:

   •   The files on 6 of the Grantee’s 75 employees and contractors did not contain evidence of
       all required background checks. The files on the 69 remaining employees and contractors
       contained evidence of the required background checks, but the checks were not always
       requested when they were due.

   •   The Grantee’s 11 childcare facilities did not meet all Federal Head Start and State
       requirements on protecting children from unsafe materials and equipment.

   •   Three of the Grantee’s childcare facilities did not provide a fully secure environment for
       the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements. The Grantee’s failure to follow these requirements
jeopardized the health and safety of children in its care.

EMPLOYEE BACKGROUND CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

The Texas Administrative Code, chapter 745, rules 601 through 753, outlines the requirements
for background checks on employees and contractors at childcare centers. Rule 745.615 requires


                                                 3
that background checks be performed as part of an applicant’s initial employment process.
Three types of background checks required by this rule include (1) a name-based check of the
State’s database of crimes committed in the State, (2) a check of the State’s central registry for
instances of child abuse or neglect, and (3) a fingerprint-based check of the Federal Bureau of
Investigation database of crimes committed in the United States.

Rule 745.615 requires that background checks be performed on all persons aged 14 or older,
other than clients of the operation, who will regularly or frequently be present at the operation
while children are in care. The name-based check and the child abuse or neglect registry check
must be repeated every 24 months. According to the Texas Department of Family and Protective
Services’ Implementation Progress Report, 2 the State phased in a rollout schedule to address the
one-time fingerprint-based check requirement. 3 The State’s rollout schedule began requiring the
fingerprint-based check for certain new employees on September 1, 2007, and required this
check to be completed no later than September 1, 2009, for all employees and persons who
regularly or frequently stayed or worked at the facility.

Grantee’s Compliance With Background Check Requirements

As of January 2010, the files on 6 of the Grantee’s 75 employees and contractors did not contain
evidence of all required background checks. Specifically:

     •   The Grantee did not request a name-based check, child abuse or neglect registry check,
         or fingerprint-based check for a payroll clerk hired in March 2005 and an information
         technology specialist hired in May 2009 and did not request a fingerprint-based check for
         a substitute teacher hired in August 2006.

     •    The Grantee did not request a name-based check, child abuse or neglect registry check,
         or fingerprint-based check for three contractors (a child therapist, a licensed counselor,
         and a dietitian) who made regular visits to its childcare facilities.

Although the Grantee had obtained all 3 types of background checks on the 69 remaining
employees and contractors, the Grantee did not always request these checks when they were due.
As shown in the table on the next page, the Grantee did not request initial background checks on
23 employees (teachers, teacher aides, center directors, and cooks) for as long as 2 years after
they were hired.




2
 SB 758 Implementation Progress Report: A Report From the Texas Department of Family and Protective
Services, issued September 1, 2009.

3
  The Texas Administrative Code, rule 745.630, does not require this check to be repeated if a person has a
fingerprint-based criminal history on record with the Texas Department of Family and Protective Services and it has
not been more than 24 months since a name-based criminal history check was resubmitted.


                                                         4
          Length of Time Employees Worked Without Initial Background Checks

                      Time Employed Without an                Number of
                       Initial Background Check               Employees
                    30 days or less                               4
                    31 to 364 days                               15
                    1 to 2 years                                  4
                        Total                                    23

The Grantee also did not request initial background checks on another six employees
(administrative staff who did not have regular contact with children) for up to 6 years after they
were hired.

In addition, the Grantee did not request the 24-month and/or fingerprint-based checks on 26
employees and contractors in a timely manner. These lapses ranged from 1 day to 1 year and 8
months.

By not ensuring that all employees and contractors had timely background checks, the Grantee
potentially jeopardized the safety of children in its care.

MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)), grantees must provide for the
maintenance, repair, safety, and security of all Head Start facilities, materials, and equipment.
Grantees must ensure that indoor and outdoor premises are cleaned daily and kept free from
undesirable and hazardous materials and conditions.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start requirements or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

The Texas Administrative Code, chapter 746, rule 3407, requires childcare centers to repair and
maintain buildings, grounds, and equipment and to keep all cleaning supplies and other toxic
materials out of the reach of children. Rules 746.4305 and 746.4307 require childcare centers to
ensure that play areas have a fence that is at least 4 feet high and have at least two exits. Rule
746.4601(9) states that platforms more than 20 inches high on which prekindergarten and
younger children play must be equipped with protective barriers sufficient to prevent children
from crawling over or falling through the barriers. Further, rule 746.4603(5) states that children
must not use multiple-occupancy swings such as teeter-totters. Rule 746.4001 requires that first
aid kits be available in each building, and rule 746.4003 lists the required contents and mandates
that first aid supplies must not have expired.




                                                 5
Rule 746.3701(1) requires that electrical outlets accessible to children younger than 5 years of
age have childproof covers or safety outlets. Rule 746.5307 requires each childcare center to
inspect fire extinguishers monthly. Further, rules 746.5319 and 746.5537 require each childcare
center to test all smoke detectors and carbon monoxide detectors monthly. Rule 746.5205
requires childcare centers to perform fire drills monthly and severe weather drills at least once
every 6 months.

Grantee’s Compliance With Material and Equipment Safety Requirements

Our visits to the Grantee’s facilities found that none of the 11 facilities met all Federal Head
Start and State health and safety requirements on protecting children from unsafe materials and
equipment. In addition, 3 of the 11 facilities did not provide a fully secure environment for the
children in their care. We defined “facility security” as limiting public access to the facilities
and preventing children from leaving the facilities.

Archer City (visited January 13, 2010)

   •   A strip of sheet metal on a playground storage shed had sharp, jagged edges
       (Appendix A, Photograph 1).

   •   A first aid kit lacked tweezers and contained a bottle of peroxide that expired in October
       2008.

   •   The playground equipment included a teeter-totter.

   •   The facility did not have documentation of monthly inspections of carbon monoxide
       detectors.

Chillicothe (visited January 13, 2010)

   •   An unlocked storage room located next to the classroom was accessible to children. The
       storage room contained stacks of opened cardboard boxes and chairs and had a darkened
       stairway that led to an unused room (Appendix A, Photograph 2).

   •   A strip of sheet metal on a playground storage shed had sharp, jagged edges.

   •   The playground gate did not close securely. The gate opened to the facility’s parking lot
       (Appendix A, Photograph 3).

   •   The fence surrounding the playground, as measured from inside the playground, was less
       than 4 feet high.

   •   A first aid kit lacked cotton balls.

   •   The facility did not have documentation that it had performed severe weather drills.



                                                 6
Foard County (visited January 11, 2010)

   •   A board with a protruding nail was accessible to children on the playground
       (Appendix A, Photograph 4).

   •   An unlocked storage shed on the playground contained chairs, boxes, toys, and other
       items that posed a toppling hazard (Appendix A, Photograph 5).

Graham (visited January 11, 2010)

   •   A first aid kit lacked cotton balls, scissors, tweezers, and a first aid and emergency care
       guide.

   •   The edges of a rug were curled up, creating a tripping hazard (Appendix A, Photograph 6).

Knox City (visited January 12, 2010)

   •   A first aid kit lacked tweezers and a first aid and emergency care guide.

   •   The edges of a rug were curled up, creating a tripping hazard.

Munday (visited January 12, 2010)

   •   Disinfectant was stored in an unlocked cabinet accessible to children (Appendix A,
       Photograph 7).

   •   A first aid kit lacked cotton balls and a first aid and emergency care guide.

Olney (visited January 11, 2010)

   •   A platform that was more than 20 inches high lacked protective barriers sufficient to
       prevent children from crawling over or falling through the barriers (Appendix A,
       Photograph 8).

   •   A first aid kit lacked adhesive tape and multiple bandage sizes.

   •   The edges of a rug were curled up, creating a tripping hazard.

   •   The playground gate did not close securely. The facility was located on a major road.

   •   The facility was more than 4 months overdue for its next monthly inspection of fire
       extinguishers and smoke alarms. The last documented inspection was on August 6, 2009.

   •   The facility was more than 4 months overdue for its next monthly fire drill. The last
       documented fire drill was on August 6, 2009.



                                                 7
   •   The facility was more than 2 months overdue for its next biannual severe weather drill.
       The last documented severe weather drill was on April 22, 2009.

Dunbar (visited January 12, 2010)

   •   A board with a protruding nail was accessible to children on the playground.

   •   The chain-link fence around the playground had barbed wire tangled between its links
       and sharp, twisted ends exposed at the top (Appendix A, Photograph 9).

   •   A strip of sheet metal on a playground shed had sharp, jagged edges.

   •   Steps to the main entrance had loose boards, which created a tripping hazard
       (Appendix A, Photograph 10).

   •   The facility did not have documentation that it had performed severe weather drills.

Turner (visited January 12, 2010)

   •   Paint and cleaning solution stored under sinks were accessible to children (Appendix A,
       Photographs 11 and 12).

   •   An unlocked gate on the playground allowed children access to a radio tower and two air
       conditioning units. The tower rose well above the childcare facility’s roof and was built
       in a manner that allowed easy climbing (Appendix A, Photograph 13).

   •   A first aid kit lacked adhesive tape, multiple bandage sizes, a thermometer, and tweezers.

   •   A side door was unlocked. The door opened to a small entryway that led directly to two
       classrooms.

   •   The facility did not have documentation that it had performed monthly fire drills.

   •   The facility did not have documentation that it had performed monthly inspections of
       smoke detectors.

   •   The facility did not have documentation that it had performed severe weather drills.

   •   An electrical outlet accessible to children in a classroom lacked child-protective caps.

Seymour (visited January 13, 2010)

   •   The sharp ends of staples protruded from a bookcase within reach of children in a
       classroom (Appendix A, Photograph 14).




                                                8
   •   The edges of a rug were curled up, creating a tripping hazard.

Wilbarger County (visited January 13, 2010)

   •   A cordless phone with an exposed battery was lying on a children’s play table. The
       battery had a label warning that “toxic materials could be released” (Appendix A,
       Photograph 15).

   •   Toilet brushes stored under a bathroom sink were accessible to children (Appendix A,
       Photograph 16).

   •   Cleaning solution stored on an open shelf in a room adjacent to a classroom was
       accessible to children.

   •   A first aid kit lacked multiple bandage sizes.

   •   A strip of sheet metal on a playground shed had sharp, jagged edges.

   •   The playground had only one exit available because one of its gates was chained and
       locked. The teachers did not have the keys to the lock when the children were on the
       playground.

   •   An unlocked gate on the playground allowed access to air conditioning condensing units.

By not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the safety of children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements.

RECOMMENDATIONS

We recommend that the Grantee develop and consistently follow procedures to ensure that:

   •   required background checks are completed when due,

   •   all unsafe conditions are corrected and all necessary repairs are addressed in a timely
       manner, and

   •   all facilities are secure.




                                                 9
GRANTEE COMMENTS

In written comments on our draft report, the Grantee agreed with most of our findings and
described actions that it had taken or planned to take to address most of the deficiencies that we
identified. In addition to addressing material and equipment safety and facility security
deficiencies, the Grantee stated that it had completed background checks on the payroll clerk, the
technology specialist, and the three contractors who were identified in our report. Furthermore,
the Grantee said that it had implemented plans to track each employee’s 24-month background
check. The Grantee did not address our finding that its files contained no evidence of a
fingerprint-based background check for a substitute teacher hired in August 2006. The Grantee
also did not address the two material and equipment safety findings at Knox City or the finding
at Olney that curled rug edges created a tripping hazard.

The Grantee disagreed with our findings at Archer City and Turner regarding the lack of
documentation of carbon monoxide detector tests and severe weather drills, respectively. The
Grantee said that it had located such documentation. Regarding our finding at Turner that a side
door opening to an entryway that led to two classrooms was unlocked, the Grantee said that each
classroom must have two exits.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

At the time of our visits to Archer City and Turner, the Grantee was unable to provide us with
documentation of carbon monoxide detector tests and severe weather drills, respectively, and the
Grantee did not provide the documentation with its comments. Regarding our finding about the
unlocked side door at Turner, we consider the unlocked door to be a security risk because it
would allow unrestricted entry to the facility. Nothing in the Grantee’s comments caused us to
revise our findings or recommendations.




                                               10
APPENDIXES
                                                                               Page 1 of 8


   APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
            SAFETY AND FACILITY SECURITY REQUIREMENTS




Photograph 1 – Taken at Archer City on 1/13/10 showing a playground storage shed with a
strip of sheet metal having sharp, jagged edges.




Photograph 2 – Taken at Chillicothe on 1/13/10 showing the contents of an unlocked
storage room located next to the classroom. The storage room was accessible to children.
                                                                              Page 2 of 8




Photograph 3 – Taken at Chillicothe on 1/13/10 showing a playground gate that could not
be secured because of a gap between the latch and the post. The gate opened to the
facility’s parking lot.




Photograph 4 – Taken at Foard County on 1/11/10 showing a nail protruding from
a board on the playground.
                                                                             Page 3 of 8




Photograph 5 – Taken at Foard County on 1/11/10 showing chairs, boxes, toys, and other
items stacked in an unlocked storage shed on the playground.




Photograph 6 – Taken at Graham on 1/11/10 showing a rug with curled edges, creating a
tripping hazard.
                                                                            Page 4 of 8




Photograph 7 – Taken at Munday on 1/12/10 showing disinfectant stored in an unlocked
cabinet accessible to children.




Photograph 8 – Taken at Olney on 1/11/10 showing a platform more than 20 inches high
without sufficient protective barriers.
                                                                               Page 5 of 8




Photograph 9 – Taken at Dunbar on 1/12/10 showing barbed wire running through the
playground fence and sharp, twisted chain-link ends at the top.




Photograph 10 – Taken at Dunbar on 1/12/10 showing loose boards on steps to the facility’s
main entrance.
                                                                           Page 6 of 8




Photograph 11 – Taken at Turner on 1/12/10 showing paint with a label warning “KEEP
OUT OF REACH OF CHILDREN” stored in an unlocked cabinet under the children’s
bathroom sink.




Photograph 12 – Taken at Turner on 1/12/10 showing cleaning solution with a label
warning “KEEP OUT OF REACH OF CHILDREN” stored in an unlocked cabinet under
a classroom sink.
                                                                                Page 7 of 8




Photograph 13 – Taken at Turner on 1/12/10 showing an unlocked playground gate leading
to a radio tower and two air conditioning units.




Photograph 14 – Taken at Seymour on 1/13/10 showing the sharp ends of staples
protruding from a bookcase in a classroom.
                                                                             Page 8 of 8




Photograph 15 – Taken at Wilbarger County on 1/13/10 showing a cordless phone with an
exposed battery lying on a children’s play table. The battery had a label warning that
“toxic materials could be released.”




Photograph 16 – Taken at Wilbarger County on 1/13/10 showing toilet brushes stored
under a bathroom sink that was accessible to children.
                                                                                              Page 1 of5


                  APPENDIX B: GRANTEE COMMENTS 





          KOLLING PLAINS MANAC~MENT CORPORATION HEAl) START 


                               ",0. BOX 4\10       I'HON!O: (940) /i84· I 57 1 


                                      C ROWEU ., TEXAS "221 





August 16,2010

PalIicia Wheeler
Regional lnspector General for Audit Services
Office of Audit Services, Region VI
1100 Commerce Street. Room 632 

Dallas, TX 75242 


Re: Report numbt-'J" A-06- IO-OOO53 


Dear Ms . \'/heeler: 


This letter is in response 10 your draft report dated August 9, 2010. 


Grantee's Compliance \Vith Background Check Requirements: 


    • 	 Payroll Clerk hired in March, 2005 - A complete background check was 

        completed on this employee in January of201O. 

   • 	 Technology Specialist - A complete background check wa'l completed on this
       employee in January of 20 10.
   • 	 Three contractors, child therapist, licensed counselor, and die tician - Complete
       background checks wcrc completed on thesc contractors in August of20 10.

Employees are hired with the understand ing tha t a complete background check wi!! be
conducted. Any violations prohibiting their presence while children are in care will result
in immediate tcmlination. Ticker files have been developed to assist in tracking each
employee's 24 month background check.

Malerial and Equipment Sarety and Facility Security:

Archer City

   • 	 A strip of sheet metal on a playground storage shed had sharp, jagged edges ­
        This   wa.~   repaired last March, 2010.
                                                                                                Page 2 of5




   • 	 A fir.;i aid kit lacked tweezer.; and t:ontaine<l a bottle of peroxide that expired in
       October 2008 - A new first aid kit with the required items wru; purchased in
       March,201O.
   • 	 The playground equipment included a teclcT-iotter - This was removed in March,
       2010.
   • 	 The facil ity did not have documentation ofmolllhly inspections of carbon 

       monoxide detectors - This was documented on the wrong Conn. 1\ was 

       documented on the correct fonn in January 13,20 10. 


Chillicothe

   • 	 An unlocked storage room localed ncltl lO the classroom was acces.~ible to
       children. The storage room contained stacks of opened cardboard boxes and
       chairs and had a darkened stairway thai led to an unused room - A door thaI can
       be locked will be installed to cover this and will be completed by August 19,
       20 10.
   • 	 A strip of sheet metal on a playground storage shed had sharp. jagged edges ­
       This will be repaired on AugU$1 19,20 10.
   • 	 The playground gate did nOI close securely. The gate opened 10 the faci lily's
       parking 101- This gate was repaired in April, 20 10.
   • 	 The fence surrounding the playground , as measured from inside the playground
       wal.less than 4 feel high -TIle reason for this was soft-surfacing was added
       around the swings and the contractor put thc plastic timbers against the fcnce.
       This will be corrected by August 22. 2010.
   • 	 The first aid kit lacked colton balls - Cotton balls were purchased and pU! in first
       aid kit in March, 2010.
   • 	 The facili ty did not have docum entation that it had pcrfonned severe weather
       dri lls - A severe weather drill was done in March, 2010.

Foard County

   • 	 A board with a protruding nail was accessible to chi ldren on the playground ­
       This board was removed on January 15,20 10.
   • 	 An unlocked storage shed on the playground contained chairs, boxes, toys, and
       other items that posed a toppling hazard - A lock was purcha.~ed and put on this
       door on J anuary 15, 2010.

Graham

   • 	 A first aid kit kIcked cotton balls, scissors, tweezers. and a first aid and
       emergency care guide - A new fi rst aid kit with the required items was purchased
       in March, 2010.
   • 	 The edges of a rug were curl ed up, creating a tripping hazard - These edges were
       secured to the floor with new tape on J anuary 11 ,2010.
                                                                                               Page 3 of5




Munday

   • 	 Disinfectant was stored in an un locked cabinet accessible to children - T his was
       removed and placed in a locked cabinet on January 12,2010.
   • 	 A fIrst aid ki t lacked cotton balls and a first aid and emergency care guide - A
       Ilew fiTl!l1 aid kit w ith the requ ired ilem~ was purchased in March, 20 10 .

Olney

   • 	 A p latfonn thaI was more than 20 inches high lac ked protective barrier.; sufficient
       to prevent children from crawling ovec or falling through the barriers - Rails will
       be installed at the appropriate distance apart on August 19,20 10 .
   • 	 The first aid killacked adhesive tape and multiple bandage    siz~~   - Adhesive lape
          and multiple bandage sizes were purchased on January 11.2010 and placed in kit.
   •	     The playground gale d id 1101close securely. The facility was located on a major
          road - The gate was repaired on January 11 ,20 10.
   •	     The facility was more than 4 months overd ue for its nc:t\ monthly inspection of
          fire ex tinguis hef8 and smoke alarms. The las! documented inspection was on
          August 6 , 2009 - This was documcllIcd on the wrong form. It was documented
          on the eorrecl form on January I I, 2010.
   •	     The facili ty was more than 4 months overdue for ils nexi monthly fire drill. The
          last documented fi re dri ll was on August 6, 2009 - This was docurnt:nled on Ihe
          wrong form. II was documented on the correct form on J annary 11 .201 0.
   •	     The facility was more than 2 months overdue for its next biannual severe weather
          drill. Thc last documented severe weather dri ll was on April 22. 2009 - This was
          documented on the wrong form. It was documented on the correct form on
          January 11 ,20 10.

Dunbar

   • 	 A board with a protruding nail was access ib le to children on the p layground­
       This was removed on January 12. 2010.
   • 	 The chain-li nk fence arou nd the playgroun d had barbed wire tangled between its
       links and sharp, twisted ends exposed at the top - This was repa ired on January
       12,2010.
   • 	 A stri p of sheet metal on a playground shed had sharp. jagged edges - This was
       repll ired on January 12,20 10.
   • 	 Steps to the main entrance had loose boards. which created a tripping hazard ­
       This was repaired in March, 2010.
   • 	 The fac ility did not havc documentation that it had performed severe weather
       drills - The facility performed a severe weather drill the first week of March,
       2010.

Turn er
                                                                                              Page40fS




   • 	 Paint and cleaning solution stored under sinks were accessible 10 children - This
       was removed 011 January 12,2010.
   • 	 An unlocked gate on th e playground allowed children access to a radio lower and
       two air conditioning units. The lower rose well llbove the childcare facility's roof
       and was built in a manner that allowed easy climbing - A lock was purchased the
       afternoon of January 12, 20 10 and installed 011 the gate the !l3mC day.
   • 	 A first aid ki llacked adhesive tame, multiple bandage sizes, a thermometer, and
       tweezers - A new first aid kit was purchased on January 13,2010.
   • 	 A side door wa~ unlocked. The door opened to a ~ mall entl)'wny thallcd d irectly
       to two classrooms - This is the second ellit for these two classrooms. Classrooms
       must have two exil~.
   • 	 The facility did not have documentation that it had performed monthly
       inspt:Cti on.~ of smoke delectors - TIlt: docwnentation had been moved by W IC
       personnel to a different place. It is now on the bulletin where it should be.
   • 	 The facility did not have documentation that it had severe weather drills - The
       documentation had been moved by WIC personnel 10 a different place. It is now
       on the bultetin where it should be as of January J 2, 2010.
   • 	 An electrical outlet accessible to children in a classroom lacked child-protective
       caps - This was done on January 12,2010.

Seymour

   • 	 The sharp ends of staples protruded from a bookcase within reach of childrcn in a
       classroom - This was repaired on January 13, 20 10.
   • 	 The edges of a rug were curled up, creating a trip ping hazard - Thc..~ edges were
       sc<;ured to the nonr witll new lape 011 J anuary 13 , 2010.

W ilbarger County

   • 	 A cordless phone with an exposed battery was lying on a children's play table.
       The battery had a label warning thut "toxic materials cou ld be released" - This
       was removed on J anuary 13, 20 10.
   • 	 Toilet bnlshes stored under a bathroom sink were accessi ble to children - These
       wefe removed on January 13,2010.
   • 	 Cleaning solution stored on an open shelf in a room adjacent to a classroom was
       acce.~sible to children - This was removed on January 12,2010.

   • 	 A first ai d kit lacked multi ple bandage sizes - Mullip1c bandage ~izes were
       pun:hased on January 13, 20 I 0 and put in the kit.
   • 	 A strip of sheet metal on a playground shed had sharp, jagged   edge..~   - This was
       repaired on January 14,2010.
   • 	 The playground had only one exit available because one of il~ gate..~ was chained
       and locked. The leachers did not have lhe keys to the lock when the children
       were on the playground - This lock was rep laced Oil January 14, 2010.
                                                                                            Page 5 of5




    • 	 An unlocked gale on the playground allowed access 10 air cond itioning
        condensing units - A Jock was purchased and installed 011 J anuary 14, 20 JO.

Inadequate or Inconsistently Followed Procedures

We have procedures in place for all o[thcsc deficiencies. We will add columns 11.1 our
tracking forms that center staff submits monthly to the celllm] office for all of these
deficiencies. We will rc-train staff un these procedures and additions tu forms un August
19,2010.

If yuu need additional infonnation, please fee l frcc 10 call me at 800-633-0852 or 940­
684-1571.

Thank yuu.




Mary Jo Tole
Head Start Director
